SEC.gov |  Market Contingency Preparedness
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Market Contingency Preparedness
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Market Contingency Preparedness
Audit Report No. 200February 9, 1995
EXECUTIVE SUMMARY
Between September 1993 and September 1994, we evaluated Commission preparations for responding to unusual market events and operational difficulties. Our evaluation emphasized two Commission guides: the Market Volatility and Contingency Guide (MVCG) and the Quick Understanding of Industry Contingency Controls (QUICC) Guide.
We found that over the last several years, the Commission significantly enhanced its capabilities for responding to market events, and further enhancements were planned. In addition, we found that the MVCG and the QUICC Guide were generally accurate and useful.
Overall, the Commission appeared to have made adequate preparations for responding to unusual market events, to the extent such events can be reasonably foreseen. It has shown a willingness to continually improve its preparations, based on its experience to date. We commend the Commission for its efforts.
We are recommending that the Commission implement its planned enhancements, make certain changes to its contingency guides, and schedule periodic training on market events for senior officials. Generally, the Division of Market Regulation concurred with our report; its comments are attached. We have revised the report to reflect the Division's comments.
SCOPE AND OBJECTIVES
Our overall objective was to evaluate the adequacy of Commission preparations for responding to unusual market events and operational difficulties. In particular, we evaluated the accuracy and usefulness of the Market Volatility and Contingency Guide and the Quick Understanding of Industry Contingency Controls Guide.
During the audit, we interviewed Commission and Self-Regulatory Organization staff, reviewed available documentation, and observed operations and communications in the Market Watch room. We also conducted a survey of Commission staff.
The audit was conducted between September 1993 and September 1994, in accordance with generally accepted government auditing standards.
BACKGROUND
Following the market breaks of 1987 and 1989, the Commission took steps to enhance its capability to respond to such events. / For example, the Division of Market Regulation established a Market Watch room to serve as the focal point for information gathering. It installed dedicated phone lines to the exchanges there, as well as numerous securities data bases (e.g., Reuters, Dow Jones).
The Division also prepared two guides for Commission staff: the Market Volatility and Contingency Guide (MVCG) and the Quick Understanding of Industry Contingency Controls (QUICC) Guide. It has periodically updated and enhanced the guides based on its experience using them.
The MVCG describes the responsibilities of Commission staff during periods of market volatility (i.e., extreme price swings, particularly declines). The staff are expected to gather information from the markets, communicate this information to the Chairman and the other Commissioners, and disseminate information and regulatory decisions from the Commission to the markets, governmental entities, and the public.
The QUICC Guide describes responses to major system (i.e., ADP) operational contingencies that significantly degrade or interrupt the functioning of a market, a broker-dealer, or a clearing agency. It is intended to provide guidance, not definitive answers, in the event of an operational contingency.
The two guides do not provide detailed plans outlining responses to specific contingencies, because of the complexity and inherent unpredictability of market contingencies.
AUDIT RESULTS
We found that over the last several years, the Commission significantly enhanced its capabilities for responding to unusual market events, and further enhancements were planned. Communication and working relationships between the Commission and the exchanges were good, and the MVCG and the QUICC Guide were accurate and useful. The Commission response to several instances of market volatility we observed was diligent and appropriate.
Our observations of the Market Watch room indicated that its staff continually monitored the markets, and they were aware of their responsibilities. During periods of market volatility, we noted increased presence of key officials in the room. As discussed below, improvements to the Market Watch room are planned.
Our survey of Commission employees indicated that they felt that the Commission has enhanced its preparedness for responding to market conditions. Generally, they believed that the MVCG and QUICC Guide were adequate.
Overall, the Commission appeared adequately prepared to deal with market volatility and operational contingencies, to the extent that such events can be reasonably foreseen. Of course, future events are inherently unpredictable, especially in such a highly complex and dynamic system as the capital markets. Future market contingencies and risks may differ from prior events; e.g., much recent attention has focused on possible risks to the markets from the extensive use of derivatives.
The Commission's flexible and evolving approach to responding to contingencies seems reasonable. It emphasizes the judgement of well-trained staff; good working relationships and communication links with the markets and other government agencies; general guidance for its staff (the two guides); and access to information resources (the Market Watch room), among other elements.
We commend the Commission for its efforts. We are making several recommendations for further enhancements, as described below.
Changes to Guides
The Guides do not provide sufficient information on why certain steps are appropriate. This information would help train staff, and make the Guides more complete. Also, the Guides do not clearly state that the Office of Public Affairs has the primary role in responding to the press.
The QUICC Guide, which was developed more recently than the MVCG, does not contain certain beneficial information, including an overview; a detailed description of responses needed to various operational contingencies, as well as who is responsible for those responses; and a description of the likely impact on the markets from the contingencies.
The most recent version of the Guides, issued in November 1994, incorporated two of our suggestions during the audit:
o expanding information on international matters, including a list of international regulators (this issue was highlighted by a recent incident involving the assassination of a Mexican presidential candidate /), and
o numbering the Guides to enhance accountability over these non-public documents.
Recommendation A
The Division of Market Regulation, in consultation with other affected offices and divisions, should revise the MVCG and the QUICC Guide as explained above.
Planned Enhancements
Senior officials in the Division of Market Regulation, by memorandum of July 11, 1994, requested numerous enhancements to the Market Watch room. They wish to expand the room, staff it better, and acquire additional equipment (e.g., telephones, computers, faxes) and data resources (i.e., improved access to financial news). We concur with the request, which will need to be reviewed by the Office of the Executive Director.
Recommendation B
As budget resources permit, the Division of Market Regulation should implement its planned enhancements to the Market Watch room.
Training of senior officials
Several Commission staff indicated that periodic training on market contingencies would be helpful for senior officials. Currently, the Commission does not have a systematic training program for these officials. Scheduled training would help ensure that they are able to act quickly and effectively in response to market events when necessary.
The training could cover an overview of the MVCG and QUICC Guide, as well as discussion of possible market contingencies. Training would be especially appropriate for officials new to the Commission.
Recommendation C
The Division of Market Regulation, in consultation with affected divisions and offices, should develop and implement a training program for senior Commission officials.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us